<html>
<title> - STOPPING AN AVIAN INFLUENZA THREAT TO ANIMAL AND PUBLIC HEALTH</title>
<body><pre>[Senate Hearing 114-452]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-452

     STOPPING AN AVIAN INFLUENZA THREAT TO ANIMAL AND PUBLIC HEALTH

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                              JULY 8, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        
        
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-257 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
        
        
        
        
        
        
        
        
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
          Gabriel S. Sudduth, Senior Professional Staff Member
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
        Robert H. Bradley II, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Tester...............................................    17
    Senator Ernst................................................    20
    Senator Peters...............................................    22
    Senator Baldwin..............................................    25
Prepared statements:
    Senator Johnson..............................................    41
    Senator Carper...............................................    43

                               WITNESSES
                        Wednesday, July 8, 2015

John R. Clifford, D.V.M., Deputy Administrator, Animal and Planet 
  Health Inspection Service, and Chief Veterinary Officer, U.S. 
  Department of Agriculture......................................     4
Anne Schuchat, M.D., Director, National Center for Immunization 
  and Respiratory Diseases, Centers for Disease Control and 
  Prevention, and Assistant Surgeon General, U.S. Public Health 
  Service, U.S. Department of Health and Human Services..........     6
Christopher P. Currie, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office; accompanied by Steve D. 
  Morris, Director, Natural Resources and Environment, U.S. 
  Government Accountability Office...............................     8
Jack Gelb, Jr., Ph.D., Director, Avian Biosciences Center, 
  College of Agriculture and Natural Resources, University of 
  Delaware.......................................................    10
Scott Schneider, Owner, Nature Link Farm, Jefferson, Wisconsin, 
  and President, Wisconsin Poultry and Egg Industries Association    12

                     Alphabetical List of Witnesses

Clifford, John R., D.V.M.:
    Testimony....................................................     4
    Prepared statement...........................................    45
Currie, Christopher P.:
    Testimony....................................................     8
    Prepared statement...........................................    58
Gelb, Jack Jr., Ph.D.:
    Testimony....................................................    10
    Prepared statement...........................................    73
Schneider, Scott:
    Testimony....................................................    12
    Prepared statement...........................................    81
Schuchat, Anne M.D.:
    Testimony....................................................     6
    Prepared statement...........................................    52

                                APPENDIX

Chart referenced by Senator Johnson..............................    84
Statement submitted for the Record from Dave Rettig, Rembrandt 
  Foods..........................................................    86
Statement submitted for the Record from University of Wisconsin-
  Madison........................................................    89
 
    STOPPING AN AVIAN INFLUENZA THREAT TO ANIMAL AND PUBLIC HEALTH

                              ----------                              


                        WEDNESDAY, JULY 8, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Ernst, Sasse, Carper, 
McCaskill, Tester, Baldwin, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing is called to 
order.
    I want to first thank the witnesses for taking the time to 
come here this morning and the time you have taken to provide 
some very thoughtful and, I think, important testimony.
    This hearing is really about the recent outbreak of avian 
influenza (AI), bird flu, that has plagued, really, primarily 
the Upper Midwest, although it has--we have a map\1\ here--
unfortunately, we do not have a chart--but it has been 
sprinkled out west, a little bit further east. Fortunately for 
Senator Carper's State, it has not gone up and down the Eastern 
Seaboard yet.
---------------------------------------------------------------------------
    \1\ The map referenced by Senator Johnson appears in the Appendix 
on page 84.
---------------------------------------------------------------------------
    But, this is a serious issue. We have a mission statement 
for this Committee: To enhance the economic and national 
security of this country. This is an economic issue, and it is 
a very serious one. I do ask for unanimous consent to offer my 
written opening statement for the record,\2\ but I do want to 
just cover some quick statistics here because I think we may be 
interrupted by votes a little bit later on.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Johnson appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    But, in terms of how this is going to effect our economy, 
there are 300 million egg-laying chickens. Over 40 million of 
them have been affected by this and have been destroyed. That 
is 13.3 percent of the total egg-laying population. There are 
238 million turkeys raised every year. Eight million have had 
to be euthanized because of this outbreak. That is estimated to 
be about an $8 billion impact in our economy. And fortunately, 
we have not seen a new outbreak since about mid-June, and the 
migration period is over, but it will startup again in the 
fall. And, so, we are extremely concerned about what is going 
to happen when we have the migratory bird pattern once again.
    The purpose of this hearing really is to examine what our 
initial reaction was to the outbreak this spring and also ask 
and really explore what our reaction is going to be, how we are 
going to further limit the damage for additional outbreaks 
that--I hate to say it--probable in the fall, including--we do 
not want to alarm anybody here, but we have all heard about 
bird flu potentially mutating from animals to human beings, and 
that is why we have a pretty good panel here to discuss that 
and try and minimize the concern, but also provide assurance 
that we are going to be monitoring that and do everything we 
can if something were to happen.
    But, we have a real good panel, people from the U.S. 
Department of Agriculture (USDA), a representative from the 
Centers for Disease Control (CDC), from the Government 
Accountability Office (GAO), a professor from Senator Carper's 
home State, and Senator Carper will introduce Professor Gelb, 
and we have a victim, not a direct victim--you are a human--but 
somebody from the State of Wisconsin who lost his entire egg-
laying flock of 200,000 chickens. Scott Schneider is here to 
just describe what he has gone through and his appreciation for 
what the USDA has done, but also just the frustrations in terms 
of getting compensated in a timely manner, as well, and that is 
part of the hearing.
    But, again, this is, I think, a very important hearing and 
totally appropriate for this Committee.
    So, with that, I will turn it over to our Ranking Member, 
Senator Tom Carper, who, like I say, so far, Delaware has 
dodged the bullet, and let us hope that remains the case 
throughout the year.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks. We have not always dodged the 
bullet, as Jack Gelb knows. So far, we have been lucky. What is 
the saying, it is better to be smart--or lucky than smart. 
Lucky than smart. So far, pretty smart, and so far, we have 
been lucky. It does not mean we will always be.
    I welcome you all today. I especially want to welcome Jack 
Gelb from Delaware. Mr. Chairman, I want to thank you and your 
staff, others who worked on this hearing, and we look forward 
to hearing from each of you.
    As some of you in the room know, the issue of avian 
influenza is important, I think to our country, to all of us. 
To the Delmarva Peninsula, which includes parts of Delaware, 
Maryland, and Virginia, it is hugely important. We raise more 
chickens in Sussex County, Delaware--we only have three 
counties. Sussex County is the third-largest county in America 
and we raise more chickens there than any county in America. We 
raise more soybean there than any county in America. And a big 
part of our agri-economy, about 80 percent of our agri-economy 
in Delaware is poultry. So, it is hugely important for us.
    My hope is we come away from this hearing more confident 
than ever in the strength and the importance of America's 
poultry industry and be better prepared to respond to any 
further outbreaks, should they occur.
    I think some of you know this, but I am going to say it 
again. The poultry industry is an integral part of our national 
economy. It supports over one million jobs nationwide and about 
$350 billion in total economic activity every year. Some of the 
industry is tied, as the Chairman has said, to egg production, 
which several of our colleagues know very well. Other parts of 
the industry, as in my home State of Delaware, focus on the 
kind of chickens we eat, and ``Delmarvalous'' is actually a 
word on the Delmarva Peninsula, and we call the chickens we 
eat, we call them ``broilers.'' I do not know what you call 
them where you come from, but we call them broilers.
    As some of you know, the birthplace of the broiler industry 
actually comes from Sussex County, Delaware, that big county. 
We are very proud of that. And the industry brought to Delaware 
about $3 billion in economic activity, I think, last year.
    And, we export our chickens all over the world. The Trans-
Pacific Trade Partnership which we are attempting to negotiate 
and will probably have a chance to vote up or down on later 
this year, one of the pushes there is to be able to sell 
chickens into Canada. They keep us out. They impose a 200 
percent tariff on our poultry products going into Canada. 
Needless to say, we do not sell a lot of chickens there. And, 
Senator Chris Coons has worked very hard to get the markets 
opened up to Africa, and hopefully, we can be successful in the 
Trans-Pacific Trade Partnership and Africa and places like 
that, and instead of exporting 20 percent of our chickens 
around the world, we will take that to 25 or 30 or even higher.
    Some parts of the poultry industry, particularly in the 
Midwest, continue to grapple with the devastating impacts of 
the recent outbreak of avian influenza. We have lost millions 
of chickens and turkeys to this disease and the economic losses 
are staggering. If that is not bad enough, some of our biggest 
trading partners have temporarily closed their doors to our 
poultry exports, and in some instances these bans affect not 
just one State, but every State that produces poultry products, 
not just those that have had a confirmed case of avian 
influenza.
    Thankfully, there is also some good news. The frequency of 
new cases, as we know, has shown significant drops in recent 
weeks. Broiler chickens have yet to contract the virus. And, as 
of now, there is no evidence that there is a threat to human 
health.
    We have farmers all across America to thank for much of 
this fortunate news. Their efforts, their sacrifices really 
made a difference. I would also like to recognize our Federal 
and State agricultural and public health officials for all of 
their hard work. Our friends in academia and industry have also 
done a great job.
    It is not a time to pat ourselves on the back, not a time 
to rest on our laurels. The possibility of new outbreaks, even 
here on the East Coast, is real, and all of us need to remain 
on high alert. This is especially true as we move into the 
migratory season in the coming months.
    Today's hearing provides an important opportunity to better 
understand the threats posed by avian flu. It will also help us 
examine the steps so many people are taking to not only put an 
end to this outbreak, but to ensure that new cases do not 
spring up somewhere else. We should also use this hearing to 
identify lessons learned from our response as well as any best 
practices that can make a difference in stopping future 
outbreaks.
    I am especially interested in hearing from Dr. Gelb about 
measures we have taken in Delaware and on the Delmarva 
Peninsula that could be applied nationwide to further contain 
the spread of this virus.
    At the end of the day, we all need to work together to stop 
the spread of avian influenza. We all have a dog in this fight. 
That is mixing metaphors, I think, but a dog in this fight. We 
must all continue to act with a sense of urgency to reassure 
Americans, along with people all over the world, that our eggs 
as well as the meat from our chickens and our turkeys are safe 
to eat.
    This current outbreak is a very serious matter, no doubt 
about it. We have experts around the country like those before 
us today who have dealt with these issues before and are laser 
focused on stopping the spread of this disease. With continued 
hard work and coordination and determination, we can and will 
solve this problem together.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Carper.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Dr. Clifford. I do.
    Dr. Schuchat. I do.
    Mr. Currie. I do.
    Mr. Gelb. I do.
    Mr. Schneider. I do.
    Chairman Johnson. Thank you. Please be seated.
    Our first witness is Dr. John Clifford. Dr. Clifford is the 
Deputy Administrator and Chief Veterinary Officer for the U.S. 
Department of Agriculture's Animal and Plant Health Inspection 
Service (APHIS). In that position, he provides leadership for 
safeguarding animal health nationwide. He has served at USDA 
since 1997 in a variety of positions across the country. Dr. 
Clifford.

TESTIMONY OF JOHN R. CLIFFORD, D.V.M.,\1\ DEPUTY ADMINISTRATOR, 
     ANIMAL AND PLANT HEALTH INSPECTION SERVICE, AND CHIEF 
       VETERINARY OFFICER, U.S. DEPARTMENT OF AGRICULTURE

    Dr. Clifford. Thank you, Mr. Chairman, Members of the 
Committee, and thank you for the opportunity to testify on 
behalf of the United States Department of Agriculture.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Clifford appears in the Appendix 
on page 45.
---------------------------------------------------------------------------
    In recent weeks, the number of new detections of high path 
AI found in U.S. poultry farms has slowed considerably. In 
fact, it has been a little over 3 weeks now, I think, for Iowa 
and over 4 weeks for the State of Minnesota. A few farms 
impacted by this disease months ago have started the long 
process of repopulating with new poultry.
    These are bright spots in the largest animal health 
emergency in our country's history. While encouraging 
developments, the impact of this unprecedented disease outbreak 
is still being felt throughout our industries. Trading partners 
have restricted U.S. poultry exports, and the risk of disease 
reemerging in the fall is significant.
    Our hearts go out to the affected producers, their 
employees, and the communities they live in and support. I 
assure you that this disease has the USDA's fullest attention 
and we are committed to standing with our producers and 
industry to get them back on their feet.
    The Secretary is leading efforts to respond to this virus, 
to assist producers and maintain trade markets. As we look to 
the fall, we will be ready for the challenge.
    More than 400 USDA staff and over 2,000 USDA contracted 
personnel have been working around the clock in every affected 
State on the response. We delivered over $180 million in 
indemnification payments to producers to control the spread of 
the disease and to help them recover. All told, USDA has 
committed over $500 million, an amount more than half of the 
APHIS yearly budget, in responding aggressively to this 
outbreak. We can and will request additional funds should we 
need to.
    We have carefully studied and assessed the epidemiology of 
this virus as well as our response efforts in conjunction with 
our State and industry partners. We know that wild birds 
brought this disease to the Western United States in late 2014. 
As the birds and the virus moved into the Midwest, we saw point 
source introductions as well as farm-to-farm spread of the 
virus. Although we cannot pinpoint a single specific practice 
that caused this, our epidemiological report suggests that 
lapses in biosecurity were a contributing factor. We have 
talked at length with our State and industry partners about our 
findings and the need for all of us to think more 
comprehensively about on-farm biosecurity.
    We all agree that we are in this fight together. We have a 
shared interest in eradicating this disease and getting the 
poultry industry back on its feet.
    Last week, we met with industry and State officials to 
ensure that we have a high level of preparedness to deal with 
the reemergence and possible spread of this virus come fall. We 
encouraged our partners to review the existing avian influenza 
response plans so that they will understand what we expect and 
what actions we will need them to take should the disease 
strike.
    We are also urging States and industry to develop site and 
county-level specific depopulation plans for landfilling or 
composting of birds. Our experience in the Midwest showed that 
the biggest roadblock to efficient depopulation is the lack of 
ready sites to receive and process dead birds.
    For our part, we are taking proactive steps to be ready for 
the fall. We are identifying staffing needs and hiring more 
than 450 additional temporary employees, including 210 animal 
health technicians and 90 veterinary medical officers. We are 
also developing a potential vaccine strategy. Should we decide 
to use vaccine to address the outbreak, we will have the 
systems in place to do so.
    As part of our planning, we are also working with our 
partners to increase surveillance of wild bird populations. We 
need to be able to identify the virus' presence as quickly as 
possible to be able to stamp it out.
    Later this month, we will be meeting directly with State 
veterinarians and industry to discuss the need for more 
biosecurity. The meeting in Des Moines, Iowa, will help ensure 
that our collective biosecurity is more stringent and that we 
are as prepared as we can be for the fall.
    I want to thank all of our partners in the industry and the 
States for their cooperation in this process. Their efforts and 
their willingness to work with us are appreciated and will help 
us as we plan for the fall.
    Mr. Chairman, this concludes my testimony. Thank you.
    Chairman Johnson. Thank you, Dr. Clifford.
    Our next witness is Dr. Anne Schuchat. Dr. Schuchat is 
currently the Director of the National Center for Immunization 
and Respiratory Diseases with the Centers for Disease Control 
and Prevention, a position she has held since 2005. She is 
Assistant Surgeon General within the U.S. Public Health 
Service. She joined the Centers for Disease Control and 
Prevention in 1988 as an Epidemic Intelligence Services 
Officer. Dr. Schuchat.

TESTIMONY OF ANNE SCHUCHAT, M.D.,\1\ DIRECTOR, NATIONAL CENTER 
FOR IMMUNIZATION AND RESPIRATORY DISEASES, CENTERS FOR DISEASE 
  CONTROL AND PREVENTION, AND ASSISTANT SURGEON GENERAL, U.S. 
  PUBLIC HEALTH SERVICE, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Dr. Schuchat. Thank you, Mr. Chairman and Members of the 
Committee. I am here to discuss the potential public health 
impact from the highly pathogenic avian influenza (HPAI) 
outbreaks in U.S. birds and CDC's actions to prepare for human 
infections with these viruses.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Schuchat appears in the Appendix 
on page 52.
---------------------------------------------------------------------------
    Influenza virus is a formidable adversary. The virus's 
propensity to change presents unique challenges, and each human 
case of infection with an animal influenza virus represents the 
potential for a pandemic. Strong collaboration between animal 
and human health sectors and robust domestic and international 
partnerships are critical to identify, monitor, and respond to 
viruses of concern, like the highly pathogenic avian influenza 
viruses currently circulating in birds in the United States.
    CDC continues to assess the risk for these viruses for the 
general public as low. However, people with close or prolonged 
unprotected contact with infected birds or contaminated 
environments are likely at greater risk of infection. This 
includes poultry workers and workers responding to the current 
outbreaks in U.S. birds.
    Although there have been no reported human cases of H5 
influenza among Americans to date, CDC is taking action to 
prepare and ensure that we have the systems and tools in place 
to protect the public's health. We have issued public health 
guidance for testing, treatment, and prophylaxis and worker 
protection.
    In January, we posted guidance for clinicians and public 
health professionals on testing, specimen collection, and 
processing for people who may be infected with novel influenza 
A viruses. We posted guidance on the followup and antiviral 
chemoprophylaxis for people exposed to these viruses. And the 
Department of Health and Human Service (HHS) amended its 
guidance on use of antiviral drugs stockpiled for a flu 
pandemic to be available for use in response to the current 
domestic outbreaks.
    In June, we posted recommendations for worker protection 
and the use of personal protective equipment. We recommend 
personal protective equipment (PPE), for those in direct 
contact or going into buildings with sick or dead birds and 
carcasses, feces, or litter from potentially infected poultry. 
Recommended personal protective equipment includes properly 
fitted safety goggles, disposable gloves, boots, and an 
appropriate respirator, as well as disposable fluid-resistant 
coveralls.
    We have protocols in place for field investigations and 
contact tracing in the event of a suspected novel flu case. 
State health departments are asked to investigate potential 
human cases of H5 virus infection and notify us within 24 hours 
of identifying a person under investigation. The States are 
monitoring the health of workers who have had contact with 
infected poultry for signs and symptoms of illness that could 
occur within 10 days of their last exposure. We have also 
equipped and trained public health labs to detect novel flu 
strains, including the recent H5 strains, using test kits that 
we developed and distributed.
    We have received samples of these viruses and carry out 
genetic analyses, which do not show any markers previously 
associated with increased severity or transmissibility in 
people. We have also got ongoing studies in animals, including 
mice and ferrets, to evaluate the transmissibility and disease 
severity of these viruses. Seasonal flu vaccines do not protect 
against avian influenza, so we are preparing candidate vaccine 
viruses for humans, should a vaccine become necessary.
    The collaboration between CDC and the USDA is critical to 
our efforts to protect Americans from avian and other novel 
influenza viruses with pandemic potential. During the current 
outbreak, we have coordinated messaging and communications, 
collaborated on the analyses of the viruses and the development 
of candidate vaccine viruses, and we have embedded a CDC 
influenza expert with the USDA Incident Command Unit for this 
response.
    I want to emphasize the importance of our collaboration 
with USDA and our strong partner networks for successful 
response to flu and other infectious disease threats. There 
must be strong public health capacity at the Federal, State, 
and local levels. Our investments in domestic public health 
capacity, surveillance, communication, and public health 
preparedness will help protect the public in this and future 
outbreaks. Effective preparedness and response requires strong 
collaboration between public health and clinicians and the 
health system.
    Our global partnerships continue to protect Americans from 
infectious disease threats like this. We work with ministries 
of health, public health labs, and the World Health 
Organization (WHO) to strengthen global capacity to conduct flu 
surveillance, perform lab testing, and prepare to respond to 
influenza pandemics. More rapid detection and characterization 
of novel flu viruses bolsters our Nation's preparedness.
    The current H5 avian influenza situation has caused 
enormous impact on farmers and agricultural communities in 
several States, but fortunately, it has not yet led to human 
infections. This is only one of the challenges that influenza 
viruses pose to our economy and health. We must continue the 
efforts to detect, respond, and prevent the consequences that 
these viruses pose here and around the world.
    Thank you.
    Chairman Johnson. Thank you, Dr. Schuchat.
    Our next witness is Mr. Chris Currie. Mr. Currie is a 
Director at the Government Accountability Office, where he 
leads the agency's work in evaluating emergency management, 
national preparedness, and critical infrastructure protection 
issues. He is accompanied by Steve Morris, a Director at GAO's 
Natural Resources and Environment Team, which leads food safety 
and agriculture issues. Mr. Currie.

   TESTIMONY OF CHRISTOPHER P. CURRIE,\1\ DIRECTOR, HOMELAND 
 SECURITY AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
ACCOMPANIED BY STEVE D. MORRIS, DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Chairman Johnson and Ranking Member 
Carper and other Members of the Committee that are here today. 
We appreciate the opportunity to testify before you. Thank you 
for the introduction. As you mentioned, I handle our work on 
emergency management and national preparedness issues. Steve, 
sitting behind me, is responsible for our work on food safety 
and agriculture and he can answer any questions that I cannot 
that may come up in that area.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Currie appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    Today, I would like to discuss some key themes and 
recommendations across GAO's biodefense work, particularly as 
it pertains to the outbreak of highly pathogenic avian 
influenza in the Midwest. While we have not evaluated the 
response to the current outbreak yet, we plan to do so very 
soon, later this year. We have reported on efforts to prepare 
and respond to such outbreaks, though. We have also reported at 
the highest levels on broad national biosurveillance and 
defense efforts and coordination, all the way down to more 
specific efforts within sectors like food and agriculture.
    It is important to note that biodefense in the United 
States is a huge and complex effort that requires coordination 
and cooperation among different Federal agencies, various 
levels of government, and the private sector. Our work has 
shown that preparing for emergencies, whether they be natural 
disasters, accidents, or intentional attacks, requires careful 
planning to better know who is responsible for doing what, how 
we will coordinate, and what resources we are going to need.
    One key area we have evaluated is biosurveillance at the 
Federal, State, and local level, and that is a big word, but 
biosurveillance is the collection, analysis, and interpretation 
of data to better monitor pathogens in either humans, animals, 
plants, or in the food and agriculture sector. Coordinating 
biosurveillance efforts is a challenge because it requires 
working across traditional agency boundaries and missions, such 
as CDC and USDA. For example, Departments of Health and Human 
Services, Agriculture, and Homeland Security all have separate 
missions and authorities but have common goals under the 
Federal framework for preparing for and responding to disease 
outbreaks.
    Planning and coordination are so important because they 
dictate the actions that will be taken in the event of a real 
emergency. For example, in 2010, we found that there was no 
national strategy or designated focal point lead for developing 
national biosurveillance capabilities. We recommended the 
Homeland Security Council (HSC), which is within the White 
House, develop a strategy and designate a focal point for 
coordination.
    They did issue a strategy in 2012 and designated a focal 
point. However, that strategy has not yet identified certain 
resource and investment needs and priorities, which was an 
element we thought was critical to help prioritize resources 
across such a complex enterprise, such as biosurveillance.
    Now, drilling down a little deeper into the area of animal 
and plant disease surveillance, our findings are very similar. 
In 2004, the President issued Homeland Security Presidential 
Directive 9 (HSPD-9), to better coordinate various Federal 
agencies' responsibilities and efforts in animal and food 
surveillance. For example, under HSPD-9, the Homeland Security 
Department is responsible for coordinating efforts across all 
Federal agencies, like HHS and USDA. However, while DHS has 
made some efforts, it really has not yet fulfilled that role 
fully.
    In addition, we found that USDA had not developed a 
Department-wide strategy for implementing all of its HSPD-9 
requirements. We recommended that they do so and they told us 
that they intended to do so, but that resource challenges and 
certain competing priorities have sort of stalled those efforts 
so far.
    So, back in 2007, we reported on various Federal efforts to 
prepare for and respond to an avian flu outbreak similar to the 
one we are facing now and made several recommendations. For 
example, we recommended that USDA, one, identify the 
capabilities it would need among Federal, State, local, and 
private entities to respond to an outbreak; two, develop a 
response plan that identified various responsibilities and 
resource needs; three, help States develop their own response 
plans for high path avian influenza; and four, conduct 
exercises to actually test these response plans.
    Now, USDA implemented all of these recommendations and now 
these response plans and actions are being tested during a real 
life outbreak and with some new challenges, as Dr. Clifford 
mentioned, such as the disposal issue.
    So, we will continue to monitor these efforts and will 
begin work looking at the specific response later this year.
    This completes my prepared remarks and Steve and I would be 
happy to answer any questions you have.
    Chairman Johnson. Thank you, Mr. Currie.
    I think we will have Senator Carper introduce our next 
witness.
    Senator Carper. Thanks, Mr. Chairman.
    I am pleased to introduce Mr. Jack Gelb, Jr., the Director 
of the University of Delaware's Avian Biosciences Center. As 
the Director, Dr. Gelb coordinates teaching and research 
activities at the center and participates in national and 
international outreach. He also receives the center's poultry 
disease surveillance efforts and worked closely with Delaware's 
agricultural sector on matters of poultry health. Dr. Gelb is a 
poultry industry-wide recognized expert.
    He is joined today by his wife of 39 years, Becky, joined 
by their 11 children and their 37 grandchildren in the 
audience. [Laughter.]
    Well, part of that is true. [Laughter.]
    His wife of 39 years, Becky, is here. We rode down here on 
the train together. It was nice to see them. They left all 
their children and grandchildren at home. They do not have 11 
children and 37, but when asked why they have such a healthy 
family, Jack and Becky also said, ``We eat a lot of chicken.'' 
[Laughter.]
    Jack, welcome.
    Chairman Johnson. Good thing we do not swear you in. 
[Laughter.]
    Dr. Gelb. Thank you, Senator Carper.
    Senator Carper. There is an old saying that says, never let 
the truth get in the way of a good story. [Laughter.]

    TESTIMONY OF JACK GELB, JR., PH.D.,\1\ DIRECTOR, AVIAN 
    BIOSCIENCES CENTER, COLLEGE OF AGRICULTURE AND NATURAL 
               RESOURCES, UNIVERSITY OF DELAWARE

    Dr. Gelb. That is very true. Thank you very much, and it is 
a great pleasure and, in fact, an honor to be with you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Gelb appears in the Appendixn on 
page 73.
---------------------------------------------------------------------------
    Delmarva and the Delmarva region, which includes the 
Eastern Shore counties of the States of Maryland and Virginia, 
experienced a low pathogenicity avian influenza outbreak 
firsthand in 2004. We were very fortunate to have a successful 
outcome because of advance planning and rapid implementation of 
the regional response plan by our incident command system.
    We are very fortunate in Delaware to have many outstanding 
experts in the poultry health field. These are, again, within 
academia, but I also want to emphasize within our poultry 
companies. We are very blessed to have those individuals 
working hand-in-hand with us. And, obviously, members of the 
States and the Federal Government.
    Only three farms were positive in our Delmarva incident, 
which is remarkable given the very high densities of poultry 
and farms in the Delmarva region.
    AI outcomes, like those of cancer and other potentially 
fatal diseases, are time dependent. Recognition at the earliest 
stage of the disease is critical. But, unlike cancer, the 
situation with AI is arguably a bit more complex because the AI 
virus, the cause of the disease, is highly contagious and it 
will multiply to enormous concentrations in poultry and spread 
via the air and by off-farm movement of infected poultry, human 
carriers, and contaminated farm equipment.
    All normal farm activities must cease immediately when AI 
strikes, and the farm must be prepared to implement an 
emergency biosecurity plan. Part of the emergency plan is that 
infected flocks must be depopulated, ideally within 24 hours, 
at the earliest time following the identification of the virus 
on the farm. This is important to end animal suffering and, 
importantly, to stop the spread of the virus into the 
environment, which represents a very significant threat in 
transmission.
    There are several areas that I went into more detail as far 
as things that we might look at in the future. I will just 
briefly refer to them here.
    No. 1, develop and implement educational outreach 
biosecurity programs designed to help farmers to respond to 
avian influenza on their facilities. Biosecurity is a term that 
describes everyday and emergency disease processes a farmer 
uses to prevent and control diseases. It is probably the single 
greatest weapon that we have against avian influenza. But, 
unfortunately, biosecurity is not consistently applied by all 
farmers and by all poultry companies.
    We also need to look at, as far as No. 2 is concerned, a 
few aspects of our current emergency response plan so we can 
respond more quickly, more rapidly, to an incident, and we can 
get into that a little bit later.
    No. 3, provide an insurance program for poultry farmers who 
contract with poultry companies to raise their flocks. Dr. 
Clifford mentioned indemnifications that have been paid, and 
this is very important. But for farmers who are contract 
farmers with poultry companies, they may or may not receive 
those indemnifications. So, there is really a need for a new 
program, and there are discussions underway on this particular 
topic and I think we should look into this area seriously.
    Vaccination for controlling avian influenza in poultry 
requires very careful consideration. Again, there was mention 
earlier about developing vaccines and utilizing them in 
poultry, and I am talking more specifically not for humans, but 
for poultry. But there are some limitations to vaccines. 
Vaccines have limited efficacy, even under somewhat the best 
conditions. We certainly need more research on poultry vaccines 
to make them more effective than they currently are. But, 
vaccination is a slippery slope and we need to very carefully 
determine whether or not we are going to go down this road, the 
effect on trade, the fact that these vaccines are not 
particularly effective, can push the virus and drive it to 
further mutations.
    Last, there is a growing body of evidence that terrestrial 
wild birds may be playing a role in the transmission of avian 
influenza. We have known for years that ducks and geese, so-
called wild waterfowl, are the main reservoirs where avian 
influenza resides on a long-term basis, and we have heard 
earlier from Dr. Clifford they are the primary source for the 
point introductions at various parts of the United States. We 
have known this for years.
    So, these terrestrial birds, why might they be important? 
Well, there is some research that suggests that they do support 
virus replication and they could be so-called bridge vectors, 
carrying viruses not only to poultry--many times you see 
finches and sparrows in poultry houses--but maybe also to 
humans.
    I would like to thank Senator Carper and Senator Johnson 
for their kind invitation to be here today, and I also want to 
thank Robert Bradley of Senator Carper's office for reaching 
out to me about this opportunity. Thank you.
    Chairman Johnson. Thank you, Professor Gelb.
    Well, because Senator Carper got a witness from Delaware, I 
got one from Wisconsin. And, it is unfortunate that we have 
Scott Schneider here because you lost your flock and you are 
losing a lot of money in this process.
    Our next witness is Mr. Scott Schneider and he is the owner 
of Nature Link Farm, located in Jefferson County, Wisconsin. 
Unfortunately, his 200,000 chicken farm was the first egg-
laying operation to be hit by the H5N2 strain that then ravaged 
other chicken farms across the Midwest. He is also the 
President of the Wisconsin Poultry and Egg Industries 
Association.
    Mr. Schneider, we are very glad you could come here and 
provide your testimony.

   TESTIMONY OF SCOTT SCHNEIDER,\1\ OWNER, NATURE LINK FARM, 
JEFFERSON, WISCONSIN, AND PRESIDENT, WISCONSIN POULTRY AND EGG 
                     INDUSTRIES ASSOCIATION

    Mr. Schneider. Thank you, Mr. Chairman, Ranking Member 
Carper, and Members of the Committee, thank you for inviting me 
to discuss the impact of highly pathogenic avian influenza on 
poultry and egg producers. I appreciate the opportunity to be a 
part of developing a comprehensive solution to recover from the 
current outbreak and prevent the future spread of the disease.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schneider appears in the Appendix 
on page 81.
---------------------------------------------------------------------------
    My farm is my livelihood. My flock of 200,000 cage-free 
egg-laying hens did more than produce a product. It helped me 
meet American consumer demand. My flock and my farm fed my 
family, they paid my bills, and it enabled me to help my ten-
plus employees feed their families and pay their bills, too.
    I have always played by the rules and tried to ensure 
pristine conditions for my employees and for my birds. I have 
done my part to keep the American egg industry competitive. But 
as producers from around the world know all too well, hard work 
and strictly following regulations does nothing to protect 
against AI.
    My flock of 200,000 egg-laying hens has been reduced to 
zero in the face of the AI outbreak. My short-term prospects 
have been grim, and the middle-and long-term prospects are 
challenging, especially in the face of future AI threats. 
Although containment and biosecurity efforts have been 
admirable, survival of my family farm and the American egg 
industry at large depends on meaningful protection against 
future outbreaks.
    AI will cost my farm a minimum of $500,000 in revenues 
before this year is over. That is a sizable blow for any 
operation, but almost an unimaginable financial hit for a 
smaller producer such as myself. My farm will be completely out 
of production for at least 4 months and generate no new 
revenue. My current plans call for gradual repopulation over 
the 4-months to follow, building my flock back toward its pre-
AI size. When all is said and done, under a best case scenario, 
I am facing a minimum of 8 months with either zero or heavily 
reduced revenues and surviving by using my life's savings.
    In addition to the direct loss of revenue, I am also 
fronting payments for some of the costs of remediation and 
containment efforts until the USDA is able to reimburse me.
    Of course, my farm is just one of the many operations 
devastated by AI. To date, more than 48 million birds have been 
infected by the disease and 220 operations in 20 different 
States. AI has killed more birds in the egg sector than in any 
other to this point.
    The reported loss from the current outbreak has set egg-
layer inventories back by more than a decade. Prior to the 
current outbreak of AI, there were just over 300 million egg-
laying hens in the United States. Over the past 6 months, about 
35 million of those have been lost. That loss is hurting 
American egg supplies and driving up prices, as indicated by 
the USDA's 4.1 percent reduction of forecasted egg production 
for 2015. It has even led to the importation of shell eggs from 
Europe. This is an extreme situation that very seldom is seen 
in our industry.
    Consumers are also hurt. We have seen significant increases 
in the prices of eggs and products made with dry and liquid 
eggs due to the AI outbreak. In dollars and cents, current 
table egg prices are up 70 percent from April 2015 prices. U.S. 
consumers could pay $8 billion more to buy eggs, which is an 
increase of at least 75 percent from last year.
    The importance of USDA's response efforts to date cannot be 
overstated, nor can my gratitude for the work that the 
government and its partners have done thus far. USDA resources 
have been integral to response efforts. What is more, the 
individuals and teams that I have worked with on the ground 
have been highly professional and courteous. They are people 
who have the best intentions and a true desire to help, and I 
appreciate that help very much.
    Despite the progress being made, the sheer bureaucracy of 
doing business with the government is challenging family 
farmers who, like me, do not interact with government bodies 
every day. I do not have administrative staff to keep up with 
the changing landscape of rules, work plans, compliance 
agreements, and the rotating staff inherent to such a recovery 
process. The red tape is daunting, it is frustrating, and it is 
financially draining. But, we must push on and work within the 
framework that has been established for the benefit of me and 
those like me.
    In today's landscape, a response plan aimed at true 
eradication of the disease must be comprehensive. Biosecurity 
and containment are indispensable parts of that plan, but they 
are simply not enough. We need to stop AI and prevent future 
outbreaks. The fact that the USDA is considering use of a 
vaccine as a component of a comprehensive response strategy is 
encouraging. For producers like me, it is difficult to imagine 
investing the time and money necessary to repopulate our flocks 
without the assurance provided by an availability of an 
effective vaccine.
    This fact is made even truer in the face of upcoming bird 
migrations this fall which threaten to reintroduce outbreaks 
all over this country. Without the long-term protection granted 
by an eradication approach with a targeted use of a safe and 
tested vaccine, the path forward for my farm is far from clear.
    I am proud to be an American egg producer. I am proud to be 
a part of an industry that has done its part to feed our 
Nation, to support thousands of jobs, and keep small towns 
vibrant. If there is one message I hope this Committee takes 
from my testimony, it is this. The threat of AI can take all 
that away in one fell swoop if we fail to adopt a response plan 
that both addresses the current outbreak and prevent future 
outbreaks.
    I thank you for your time and for the opportunity to talk 
with you today and I look forward to answering your questions. 
Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Mr. Schneider.
    I think I will start with you. I think your testimony--and 
first of all, thank you for your testimony, and we obviously 
are sorry for your loss. But, what I find interesting about 
your testimony is I think you share my perspective. I have been 
very impressed with the quality of the Federal workforce, I 
mean, just really dedicated individuals doing a great job, 
which is exactly what you experienced, as well, and that is a 
good thing. But, frustrated by the problems that you encounter 
based on the bureaucracy, the rules, what they are trying to 
follow. So, I just kind of want to followup on that.
    First of all, you are a contract producer, correct? 
Somebody else owns the chickens and you run the operation.
    Mr. Schneider. Yes, that is correct.
    Chairman Johnson. Now, when we met yesterday--and I 
appreciate you coming in early--you described to me the 
indemnification process for the actual chicken owners. It took, 
what, 4 to 6 weeks for them to be indemnified against the loss 
of the chickens, correct?
    Mr. Schneider. That is my understanding, yes.
    Chairman Johnson. But, you are, as you say, there is no 
business interruption insurance. You cannot buy this kind of 
insurance in the open market. This is only provided--and it is 
a good thing that we have this indemnification through the 
USDA, but as Professor Gelb was talking about, there is a 
problem in terms of indemnifying for operational losses as well 
as trying to recover and doing what you are trying to do to 
remake your farm, is that correct? Can you describe how much 
you spent and what your frustration is in terms of being 
indemnified as the operator?
    Mr. Schneider. I think one of the situations that I am 
running into is that I will be fronting probably close to 
$150,000 in terms of depopulation, cleanup, and disinfecting 
before I am able to start repopulating my complex. It is 
difficult for me to come up with that kind of cash, and it is 
difficult to try to make sure that I am dotting all the ``I''s 
and crossing all the ``t''s when it comes to the formats that 
the USDA is going to require me to do when it comes to expenses 
and identifying which expenses are recoverable for me. Every 
day goes by, I become a little bit more concerned that some of 
those expenses might be left out or forgotten or somehow not 
covered and I stand to lose a lot more money on top of what I 
am already losing.
    Chairman Johnson. And, again, if you are not able to 
repopulate your operation for 8 months, I mean, are you going 
to be able to start generating revenue any time soon, or is it 
really you are not going to generate anything for 8 months?
    Mr. Schneider. When I start repopulating, it will be an 
incremental process. I have the capacity of 200,000 birds on my 
farm and I will start incrementally adding flocks to the tune 
of about 45,000 birds every month, starting in August and 
October.
    Chairman Johnson. Now, do you buy those as egg-laying 
chickens right off the bat?
    Mr. Schneider. They are ready to lay. Yes, that is correct.
    Chairman Johnson. OK. So, you will start generating 
revenue.
    Mr. Schneider. That is correct.
    Chairman Johnson. OK. Dr. Clifford, in the private 
insurance market, you get an insurance adjustor coming out 
onsite, assessing it, verifying the claim, writing a check 
sometimes that day or within days, or certainly a week or two. 
To me, this is a pretty simple claim to adjudicate, 
particularly the chickens. I mean, here is the program. It is 
Federal law that the chickens have to be destroyed, and it is 
Federal law that the indemnification for those owners of those 
chickens. I would think, OK, we verify that this is AI and the 
chickens are destroyed, and I do not know why the government 
cannot write a check literally within a day or two to 
indemnify, first, the owners of the chickens. Can you tell me 
why it would take 4 to 6 weeks for the owners of the chickens 
to be indemnified?
    Dr. Clifford. So, with regards to indemnification, we can 
actually do that within a week or less.
    Chairman Johnson. But, again, that was not the case in 
this----
    Dr. Clifford. No, I understand, sir.
    Chairman Johnson. OK.
    Dr. Clifford. What I was going to say, though, is what we 
require is a flock plan to be signed, and until that flock plan 
is signed, we do not pay indemnity. What the flock plan is, is 
a strategy and plan for that location, specific to that 
location, with regards to biosecurity and restocking to ensure 
that we are all doing as much as we can to prevent reinfection. 
If there is not a signed flock plan before we pay indemnity and 
they get reinfected after they repopulate, we do not pay 
indemnity a second time.
    So, I think there are things that we can do together to 
make that a lot quicker process. My heart goes out to Scott and 
his issues, and we have heard this from many producers. Some of 
these things are complex because they have never dealt with 
them.
    So, one of the things that we are doing to combat this in 
the future is assigning one person to that facility from the 
beginning to the end to work with the producer and to help them 
get through these things.
    Chairman Johnson. OK. So, you are learning from that.
    Mr. Schneider, real quick, how long did it take USDA to get 
out to your operation to inspect and really order the 
destruction of the flock?
    Mr. Schneider. I think the USDA needs to wait until the 
presumptive positive is actually confirmed by the national 
laboratory in Iowa before they are able to do anything. And so 
in my case, we had a presumptive positive, I think it was on 
maybe a Thursday of the week, and on Saturday evening, it was 
confirmed by the national laboratory in Ames, Iowa, and I think 
it was on that Monday, then, that we had USDA people----
    Chairman Johnson. And how quickly was your flock destroyed?
    Mr. Schneider. It took a little----
    Chairman Johnson. So, Thursday, infected.
    Mr. Schneider. Yes.
    Chairman Johnson. I mean, you saw chickens dying, right?
    Mr. Schneider. Right. They were.
    Chairman Johnson. They died quickly. And then, so, that was 
Thursday, and you started destroying your flock when?
    Mr. Schneider. It was probably the following Thursday or 
Friday, possibly.
    Chairman Johnson. So, Professor Gelb, in your testimony, 
you said that process should be 24 hours. That is a pretty big 
gap. There is a fair amount of continuous improvement required 
here, correct?
    Dr. Gelb. Yes, ideally. In Delaware back in 2004, our goal 
was 24 to 48 hours, in that window. And, in fact, again, that 
hinges on the identification of the virus. If we go back to 
Scott's point, that is a very important one, the process. The 
presumptive positive is made by a local or regional laboratory, 
a National Animal Health Laboratory Network (NAHLN) member 
laboratory--that is a mouthful, but it is a USDA, very 
important, very highly regarded USDA laboratory network system 
that we have nationally. They are based in Ames, Iowa. The 
confirmation must come--this is a very important point--from 
the national laboratory in Ames before it is actually a done 
deal, so to speak.
    Chairman Johnson. So, let me just say, so in the current 
structure, we have these sites. Best case, if you restructured 
the process, I mean, because sometimes tests take a while.
    Dr. Gelb. Sure.
    Chairman Johnson. Sometimes they have to incubate. What is 
best case? If you could design the structure, what is the best 
case in terms of Mr. Schneider calling somebody, you collect a 
sample. How quickly could you have that confirmed, again, best 
case, not--I guess, with current structure, but if you really 
redesigned this thing.
    Dr. Gelb. Yes. Once the samples are submitted to the local-
regional NAHLN laboratory, those results basically are 
molecular types of tests. They can be completed in about 3 
hours. Then those same samples, it is mandated, must be sent to 
the central lab in Ames for testing and for confirmational 
testing. So, at the local lab, they are presumptive. We are 
really waiting for that confirmational testing.
    So, frequently, they are going to be sent by overnight 
delivery, OK, so it might be another 24 hours. So, you are 
basically waiting, then, that additional 24 hours before you 
can take action in terms of initiating flock depopulation.
    Chairman Johnson. I want to say on this, and I want my 
Committee members to indulge me a little bit, in your 
experience--or maybe I will go to Dr. Clifford--how often do 
you have the initial result differ from the confirmation 
result? Are there instances of that? So, in other words, the 
question I am asking is could we rely on the initial result, 
and it would be destroying the flock of chickens, and all of 
the sudden, oh, that really was not avian flu?
    Dr. Gelb. These regional NAHLN laboratories are basically 
laboratories of the NAHLN. They are many times, if not all, 
many times accredited laboratories with very high quality 
staff. I am giving you a little more background. All the 
members that run these molecular tests take proficiency panels 
once a year, unknown proficiency panels that come from USDA. We 
are talking about highly qualified laboratories.
    Chairman Johnson. So, again, so the point is, we could 
improve this model, so we could destroy that flock of chickens 
within a day or two, within your guidelines, 24 to 48 hours 
rather than 7 days, which, again, just increases the likelihood 
that these outbreaks will not be contained.
    Dr. Gelb. Yes.
    Chairman Johnson. I mean, from my standpoint, for the USDA, 
if we have to write a law or improve a regulation, there is a 
real top priority of what we ought to do as a Federal 
Government to speed that process to limit the damage. I mean, 
would you agree with that, or----
    Dr. Gelb. Yes, I would.
    Chairman Johnson. OK. I have plenty of other questions, but 
I will turn it over to Senator Carper.
    Senator Carper. To our witnesses, you will see our 
colleagues are coming and going. We serve on three, four, five 
Committees, and the others have hearings going on, as well. I 
do, and I will be slipping in and out today.
    Senator Tester from Montana has asked to use a little bit 
of my time and I am going to yield to him and then recover my 
time. Thank you.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. I appreciate that.
    Very quickly, Dr. Clifford, is there a vaccine for the 
avian flu?
    Dr. Clifford. Yes, sir, there is a vaccine----
    Senator Tester. OK. How cost effective is it? What does it 
cost a bird?
    Dr. Clifford. Well, let me, if I may, there is not a well-
matched vaccine available today----
    Senator Tester. OK, so there is not a----
    Dr. Clifford [continuing]. And we are working on well-
matched vaccines for the fall.
    Senator Tester. All right.
    Dr. Clifford. But, you are usually talking pennies per 
bird----
    Senator Tester. OK.
    Dr. Clifford [continuing]. As far as the cost of vaccine.
    Senator Tester. All right. But, we are still researching 
the potential of a matched vaccine?
    Dr. Clifford. There is work ongoing, and I believe that we 
will have----
    Senator Tester. One by fall.
    Dr. Clifford [continuing]. Available vaccines by the fall 
or late fall.
    Senator Tester. Mr. Schneider, first of all, thanks for 
raising cage-free chickens, No. 1, and No. 2, I am sorry about 
your loss. I am also involved in agriculture of a different 
kind. I deal with plants. But, I just kind of want to try to 
figure out where we are going here. With grains and with 
lentils, we buy insurance. Do you pay a premium for the 
insurance we are talking about, or is this part of a disaster 
program of the USDA?
    Mr. Schneider. This is part of the disaster program of 
USDA.
    Senator Tester. OK. That is important to know. I mean, we 
buy insurance, that is heavily subsidized, I might add, by the 
taxpayer, so it is not totally private sector.
    What are you going to have to do to be able to raise 
chickens? Can you give me four or five things that you are 
going to have to do on your place so that you can guarantee 
that the avian flu is not going to come back?
    Mr. Schneider. Sure. We have to follow protocols set in 
place by the USDA----
    Senator Tester. Yes.
    Mr. Schneider [continuing]. For depopulating, for cleaning, 
and then, finally, for disinfecting.
    Senator Tester. OK. And, is there other time elements to 
those protocols?
    Mr. Schneider. Not necessarily, up until the time which you 
are completed with your disinfecting. Then you are required for 
a 21-day rest period----
    Senator Tester. OK.
    Mr. Schneider [continuing]. In which time they are doing 
sampling----
    Senator Tester. And they are still continuing to do tests 
to make sure that----
    Mr. Schneider. They are doing testing during that 21-day 
period.
    Senator Tester. OK. Very good. And, you are in the middle 
of that process right now?
    Mr. Schneider. I am completing the disinfecting, hopefully 
this week.
    Senator Tester. And, is it up to you to destroy the 
chickens or does USDA do it?
    Mr. Schneider. It is a reimbursable expense.
    Senator Tester. Yes, but do you actually do the job or do 
USDA people come in and do it?
    Mr. Schneider. It depends on whether or not there is a 
contracted company to come in and do it, or we can as a farm. 
We can contract to do it, as well.
    Senator Tester. In your particular case----
    Mr. Schneider. We assisted the contracted company.
    Senator Tester. OK. Good.
    Mr. Currie, in your written testimony, you talked a little 
bit about foot and mouth disease, and I know this is about 
avian flu, but how serious is foot and mouth?
    Mr. Currie. It is a very serious disease.
    Senator Tester. And we are free of that disease in this 
country, correct?
    Mr. Currie. That is probably a question better targeted to 
Mr. Clifford, but----
    Senator Tester. That is good. He is next on my list anyway. 
[Laughter.]
    We are free in this country of foot in mouth----
    Dr. Clifford. Yes, sir, we are.
    Senator Tester. OK. The USDA just opened up--authorized 
imports from a number of countries, including Brazil, Uruguay, 
Argentina----
    Dr. Clifford. Yes, sir.
    Senator Tester [continuing]. That are not foot and mouth 
free countries. Mr. Currie just said it was a very serious 
disease. Do you guys talk before you open up trade with other 
countries that have a highly contagious disease?
    Dr. Clifford. Do I talk with GAO about doing that?
    Senator Tester. Do you talk with Mr. Currie's office?
    Dr. Clifford. No.
    Senator Tester. OK. So, if that----
    Dr. Clifford. Why would I talk to Mr. Currie's office about 
disease mitigation? They are not veterinarians. We do risk 
assessments.
    Senator Tester. OK, so that is fine. My brother is a 
veterinarian, so do not take this personally, but----
    Dr. Clifford. I know he is. [Laughter.]
    Senator Tester. The fact is, is that why did we open up 
trade with countries that have foot and mouth disease?
    Dr. Clifford. Because they are free with vaccination, and 
what that means is they have not had cases, an active outbreak 
of foot and mouth disease for years.
    Senator Tester. In regions of those countries----
    Dr. Clifford. No, in all of the----
    Senator Tester [continuing]. Not in those entire----
    Dr. Clifford. In the entire country, there has not been a 
verified case of foot and mouth disease in the entire South 
America for over 2 years.
    Senator Tester. So, why is not Uruguay considered a 
certified free foot and mouth disease?
    Dr. Clifford. They still vaccinate. That is why. And, you 
can ship beef, boneless beef, safely if you vaccinate and you 
are free, and we have been doing that for years. We did it from 
Argentina years before they had an additional case quite a few 
years ago.
    Senator Tester. So, let us go the other direction, then. 
You are saying that if we had an instance of foot and mouth 
disease in this country, that it would not hurt our export 
business?
    Dr. Clifford. I did not say that, sir. Of course, it would.
    Senator Tester. We vaccinate.
    Dr. Clifford. We base trade on risk mitigation. We do not 
vaccinate for foot and mouth disease, nor will we vaccinate for 
foot and mouth disease unless we get the disease. They 
vaccinate routinely to make sure that they do not have the 
disease. One of these days----
    Senator Tester. I have it.
    Dr. Clifford [continuing]. I think North America will 
probably--or, the region of Americas will probably be the first 
continent free of foot and mouth disease within the next 5 to 
10 years.
    Senator Tester. That would be good. My concern is it stays 
that way, and from what I hear you say, if we had foot and 
mouth disease in this country and we were vaccinating, we would 
actually be in better shape for exports of meat than if we did 
not have foot and mouth disease and we did not vaccinate.
    Dr. Clifford [continuing]. That is not correct.
    Senator Tester. Well, now, come on----
    Dr. Clifford. I said boneless beef--boneless--from areas of 
the world that have foot and mouth.
    Senator Tester. Got you.
    Dr. Clifford [continuing]. Free with vaccination can ship 
boneless beef----
    Senator Tester. Here is my concern, and you are the doctor 
and I just raise the animals. My concern is, is what happens if 
we get foot and mouth disease in this country, and you said it 
would have impacts on our exports.
    Dr. Clifford. It would.
    Senator Tester. But, you also believe strongly that the 
chance of transferring that foot and mouth disease from a 
country like Uruguay is zero.
    Dr. Clifford. I did not say it was zero. I said it was 
extremely low risk.
    Senator Tester. What would it be, less than 10 percent?
    Dr. Clifford. Oh, it is a lot lower than that, but it is--
--
    Senator Tester. Less than 1 percent?
    Dr. Clifford. Yes.
    Senator Tester. OK. So, nearly zero.
    Dr. Clifford. As close to zero as you can get without 
saying zero.
    Senator Tester. Perfect. Thank you very much.
    Chairman Johnson. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Chairman Johnson and Ranking 
Member Carper, and to our witnesses today, thanks so much.
    I spent some time with Dr. Clifford yesterday as we met in 
the Agriculture Committee and discussed a number of these 
issues, as well. I do want to recognize, we do have a turkey 
producer from Iowa in our audience today. Mr. Moline, thanks 
for joining us again today. Good to have you here.
    Iowa was hit extremely hard. If you look, a number of us 
here up at the dais have a little map here, and you cannot 
really see Iowa too well because out of the millions and 
millions of birds that have been infected and destroyed, two-
thirds of those birds were from Iowa. So, our poultry, our 
turkeys, have been infected quite heavily, and so this has been 
a big concern for us for a number of months now. And, the 
economic impact to Iowa will be about $1 billion, very 
significant.
    So, Mr. Schneider, I sympathize with you very much. A 
number of our producers have gone through the exact same thing. 
I just want to reemphasize, it is not only devastating for 
these producers, but their employees, those employees' 
families, and the communities that are supported by these 
producers. So, thank you for being here today and sharing your 
story. I appreciate that very much.
    Dr. Clifford, I would like to go back and visit a little 
bit more about the vaccination process. We talked about it a 
little bit yesterday. Is the USDA working on the vaccination 
process? If you could explain a little bit about the process, 
where we are with that. I know a number of different groups 
will support vaccinations, some will not. What we want to do is 
ensure that we are working with trade partners, as well. So, if 
you could talk about our trade partners, that would be very 
helpful.
    Dr. Clifford. Thank you, Senator Ernst. Yes, what we are 
doing is developing, actually, a vaccine bank. We intend to go 
out with a request for proposal soon to ask companies to bid on 
that. We have several companies that are in process of 
developing vaccines and we believe that we will have a vaccine 
bank available sometime this fall, it may be late fall 
depending upon the companies' ability to get that vaccine 
manufactured.
    It is a tool in the toolbox, as Dr. Gelb said, that we 
really need to have to use if we decide it is the right thing 
to do in a particular situation. So, we are working on those 
protocols and then we will be reaching out this summer to our 
trading partners to try to encourage our trading partners, 
under these conditions, to not shut off trade. And, if we are 
successful, then that will help us to be able to utilize that 
one tool, because right now, if we use that tool in our 
toolbox, they will shut us off and we will lose potentially up 
to $3 or $4 billion additionally in trade. And, they are not 
talking about a partial shut-off. They are talking about an 
entire country shut-off.
    So, I understand the turkey producers wanting to use 
vaccines. I can understand the layers and especially outdoor or 
cage-free birds. So, you have these different groups, from the 
broilers to the genetics groups that do not want it used 
because of the impact on trade. So, we are trying to balance 
all this. We are trying to get our trading partners to support 
its use in a limited way where it makes sense.
    An example of use would be in turkey flocks in Minnesota 
that have a very close proximity to a lot of lakes and a lot of 
potential wild waterfowl.
    Senator Ernst. Very good. No, I appreciate that very much.
    And, Dr. Gelb, you had mentioned that, of course, the 
growers, there is an indemnity fund, but some of the growers 
are not seeing the funds flowing their direction. Do you know 
of any mechanism where we would be able to follow those dollars 
and find out--we do want to make sure that if the growers are 
entitled to a portion of that indemnity payment, that they are 
receiving that. Do you know of any mechanism that we might be 
able to engage for followup?
    Dr. Gelb. Yes. This is a little bit out of my area, but 
working with our local trade association, the Delmarva Poultry 
Industry, Incorporated, and speaking with William Satterfield, 
the Director of that organization, I think he, for example, 
could give you a better answer on this.
    But, my understanding, as I indicated earlier, the 
indemnities for contract growers--and there are many contract 
growers in this country where they do not own the birds. They 
provide the facilities, the heat, the ventilation, basically, 
to grow them. But, the birds themselves belong to a poultry 
company. And, frequently, those indemnities, they just go to 
the poultry company. Some of the companies will then share some 
of the indemnity funds with the contract grower.
    So, this is kind of a contract grower issue, and I 
mentioned, also, the interest and current proceedings now in 
thinking about moving forward with an insurance program that 
growers could purchase where those funds would go directly to 
them rather than to the company. So, yes, Senator, you bring up 
an excellent question, and I am not sure I am really the best 
one to address it.
    Senator Ernst. Thank you.
    Dr. Gelb. Thank you.
    Senator Ernst. Well, I thank you for raising the issue.
    And, just one parting point, and I know, Mr. Currie, you 
work with emergency management, and as we discussed yesterday 
in the Agriculture Committee, Iowa did have plans in place 
should this happen. We had a number of landfills that were 
willing to accept the carcasses of the birds after they were 
virus-free. But, I tell you, even the best laid plans can go 
awry, because we had really kind of an uprising amongst the 
people around those landfills and along those routes that said, 
how do we know that our birds will not be hit by this virus by 
moving those birds to these landfills? So, it was a great 
concern with the people of Iowa that we were not affecting 
additional farms out there. So, even the best laid plans cannot 
go the way they are intended.
    But, thank you very much to our panel for being here today. 
We appreciate it. Thank you, Chairman and Ranking Member.
    Chairman Johnson. Thank you, Senator Ernst. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
the panelists for your testimony.
    This is certainly an issue that is somewhat frightening to 
a lot of folks, to think that an influenza could hit the 
poultry industry so quickly, and that so many birds die and 
have such a massive impact on egg production, and we just think 
about, certainly, other produce as well, and how these bio 
threats are so significant.
    In fact, Michigan, the State that I am blessed to 
represent, became the 21st State to confirm a case of avian flu 
here just recently. I believe it was in wild birds, actually, 
some geese where it showed up, and I think that is possibly 
where it all started. I think we are still trying to figure 
that out.
    But, I guess that leads to my question for you, Dr. 
Clifford. How closely are you working with the Fish and 
Wildlife Service? Are they involved in monitoring what is 
happening with wild birds and the impact it could have on our 
agricultural sector? Certainly, we will have fall migrations 
that will be involved with some of these wild birds. So, do you 
work with the Fish and Wildlife Service, and if so, what are 
you doing?
    Dr. Clifford. Yes, sir, we do. We work directly with them. 
Our Wildlife Services Division of APHIS leads this effort for 
us and they work directly with the State Departments of Natural 
Resources (DNR), the U.S. Fish and Wildlife Service, and other 
entities with regards to wild bird surveillance.
    We have actually been doing wild bird surveillance for a 
long time. We began doing a lot more surveillance during the 
H5N1 occurrence quite a few years ago in Asia, when it became a 
human health issue and concern, as well, and we increased our 
surveillance. As that became less of a concern for the United 
States from the flyways--and we did a lot of testing and 
monitoring and no cases were found of that H5N1--then we 
reduced the level of monitoring because of the lack of threat 
from that particular agent.
    Based upon these recent findings, we have increased 
surveillance in wild birds and we actually have plans out there 
available that includes Fish and Wildlife, DNRs, and APHIS 
Wildlife Services on the collection of these samples, and it 
will occur across all four flyways. In addition, we take 
samples from up north of Alaska, there in the Bering Strait 
area where these birds currently are to see what is happening 
right now, today.
    Senator Peters. Very good. Well, as I looked at the spread 
of this and looked at the industry and the concentration of the 
industry, which I think is very interesting I want to direct 
this question to Dr. Schuchat, probably Dr. Clifford, as well, 
and Dr. Gelb. The statistic that I think is very interesting is 
that there are 56 privately held farms that account for about 
90 percent of all of the egg production in the United States--
90 percent. So, we have some small family farms, but there are 
not very many small family farms anymore. That has faded away. 
We have large family farms and we have large corporate farms. 
And now we have just 56 farms that have 90 percent of the 
production. So, that is an incredible concentration of animals.
    So, I want to kind of get your sense. We have a very large 
amount of birds in a very small space, and this is not just in 
poultry, it is in other types of agricultural production, as 
well. Does that put us at greater risk when it comes to 
disease, because you have that kind of concentration, or does 
it not? If you could kind of address that for me as far as what 
we are looking at in terms of our challenges.
    Dr. Schuchat. Yes, I can just briefly comment from the 
human health perspective, but I think Dr. Clifford will be 
better. We need biosecurity to be strong at every level, and 
one level is really what is the geographic location of the 
establishments. But we need within any establishment, 
concentrated or not, the right kind of procedures and protocols 
and the workforce practicing those, because there is risk of 
spread between the facilities.
    So, the specifics of the agricultural practices would be in 
the USDA arena. What I need to just say is that the workers on 
those premises and the contractors and so forth who help with 
remediation really need to be tracked to make sure that they 
are OK following their exposures and that they do not develop 
illness that could be a human case of avian influenza.
    Dr. Clifford. So, with regards to issues of whether you 
have intensive farming practices or less so, this virus really 
does not care. Granted, the more birds you have in a location, 
the more virus production, the wider the spread can occur.
    What we need to be thinking about in the way of biosecurity 
is why this outbreak is different than what we have seen 
before. This is the first time in North America that we have 
had a high path AI virus travel through wild birds from Europe 
and Asia to North America, the first time, and it is because it 
has adapted itself to these dabbling ducks and it has moved 
across the Bering Strait. It never happened before in a high 
path. Low path, maybe, but not high path.
    So, what is different now is we have to consider 
biosecurity, where it was fine and well and good for what we 
were dealing with prior to this, we have to consider now that 
this is different. You have to look where there are wild 
waterfowl as the entire environment being affected, 
potentially. It does not mean it is, but you have to consider 
that as a potential. Every single house that birds exist in, or 
every single location, you have to think in ways of trying to 
protect from house to house to house. And it is not about the 
facility being safe, it is only the safety within each of those 
houses where those birds are kept, and they have to be looked 
at as single biosecurity facilities, which is much different 
than what we have had to do prior.
    Senator Peters. So, it is better to have a few large 
concentrations or more----
    Dr. Clifford. It is really more about the biosecurity. But, 
obviously, in any viral infection, the more birds you have, the 
easier the virus can spread, the more virus production. That is 
why it is critically important to get birds put down quickly.
    Senator Peters. Right, especially when you have 56 
operations that are 90 percent of all the eggs in America.
    Dr. Clifford. These are highly integrated----
    Senator Peters. Yes.
    Dr. Clifford [continuing]. Operations.
    Senator Peters. Dr. Gelb, do you want to mention----
    Dr. Gelb. Yes. I will kind of answer this from the broiler 
or the meat-type chicken perspective in Delaware, where, as 
Senator Carper indicated, it was the birthplace of the modern 
broiler or meat-type industry in the United States. It has 
continued to be very productive there and we often brag about 
the efficiency of our poultry production in Delaware and 
Delmarva.
    But, this concept of having highly density of poultry 
within a given house, but even more importantly the density of 
farms in that area, that does facilitate the potential for more 
rapid transmission. We are dealing with a very contagious 
virus. We are dealing with a situation where the ventilation 
fans that are used to maintain the proper environment of the 
chickens are turned on virtually all the time, and material--
dust, other material that is coming out of the air of those 
barns--will have virus.
    And, that virus will travel to some degree, not miles and 
miles, but in Delaware, within a one square mile area, we might 
have four or five farms, and each of those farms might have 
60,000 to 80,000 chickens on them. They are all contract 
growers. They may be--and those contracts are probably with--
there are four different integrated operations, four different 
companies.
    So, you have a situation, as Dr. Clifford indicated, where 
you may have these very large single farms, layer operations, 
for example, but on some other areas of the country, you have 
independent facilities owned by different companies, but it is 
essentially the same thing. Even though maybe the travel on and 
off those particular farms is different, when birds are taken 
to market, they are caught, they are put in cages, those trucks 
take them to what we call processing plants or slaughterhouses, 
and they may go by 15 different other farms. And, the dust and 
the feathers are coming from these live haul trucks, as they 
are called.
    So, there are a lot of complexities here and we really need 
to kind of think this all through. That is why in Delaware, we 
are--``concerned'' is not the right word, thinking about what 
might happen here this fall.
    Chairman Johnson. Thank you, Senator Peters.
    A real quick point of clarification for Dr. Clifford. There 
may be 56 poultry companies, but there are a lot of locations, 
right?
    Dr. Clifford. Sure. I mean, there are 20 States that we 
would consider to be major poultry producing States across the 
United States.
    Chairman Johnson. So, we are not talking about 56 
locations. We are talking about probably thousands of 
locations, correct?
    Dr. Clifford. Correct.
    Chairman Johnson. But, just multiple----
    Dr. Clifford. But, there are areas across the country where 
there are higher concentrations than others.
    Chairman Johnson. Right. Got you. Great. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman.
    This year's avian flu outbreak has had a deep impact in my 
home State of Wisconsin. The outbreak has wreaked havoc on our 
farms, where producers have faced the devastating reality of 
sick and dying birds, I am so pleased that we are joined today 
by 
Mr. Schneider of Lake Mills, Wisconsin, to share his story of 
his farm and livelihood.
    The impacts, as we have discussed, of avian flu are really 
broad on farm workers, on individuals working at processing and 
packing plants whose jobs depend on those lines running, as 
well as on the broader farm community, which depends upon 
demand for grain, supplies and services from our poultry 
growers. And, so, this avian flu crisis is also a community 
crisis.
    Wisconsin is proud to play a role as host to research labs 
that are laser focused on the key questions that are in front 
of 
us--questions about how the virus mutates, how it is harbored 
in wild birds, as well as diagnostic labs that help us track 
its spread and track viral strains as they emerge.
    Dr. Clifford, producers in my State have relied on the 
tireless work that you do, and your team has put in lots of 
time and energy into addressing this crisis over the past many 
months. I want to thank you for your leadership.
    We know that research labs responding to this virus span 
several different Federal agencies and are supported, by State 
labs. Madison, Wisconsin is home to the U.S. Geological Survey 
(USGS) National Wildlife Health Center and conducts research to 
determine which wild bird species might carry and spread 
various viral strains. I want to note parenthetically that I am 
quite concerned that the lab's aging infrastructure is not 
allowing it to fully perform as needed during this crisis. This 
is something that I have paid great attention to.
    Dr. Clifford, as you know, this Wildlife Health Center 
conducts research that supports the industry focused research 
at USDA. I am wondering if you could share some general 
comments about the importance of interagency collaboration and 
research investments as well as coordination to address this 
crisis.
    Dr. Clifford. I think interagency, across agencies, across 
States and the industry, the collaboration across all of them 
is extremely important. I think that was well stated earlier by 
the testimony of Chris Currie with regards to the importance of 
collaboration.
    We actually collaborate on an ongoing basis with CDC. We 
work very closely with USGS. We work very closely with the 
Department of Interior as a whole. The money and funding we 
provide for the wild bird surveillance, some of that money 
would go to help support that testing that USGS and others 
would be doing in collection and testing of those samples. We 
work with Customs and Border Protection (CBP), the DHS, the 
Food and Drug Administration (FDA), I mean, a whole host of--
Food Safety Inspection Service within our own agency. We have 
an internal MAC group within the Department of Agriculture that 
is stood up that brings across all the agencies to help address 
this issue, as well as with the State agencies.
    So, it is critically important that all this is 
coordinated. As Senator Ernst was talking about with the 
landfills, there are issues with the Envirionmental Protection 
Agency (EPA). There are issues with transportation. There are 
issues with a lot of these things that have to be coordinated 
across.
    There could be issues with availability of water. These 
foamers that we use for depopulation of birds requires a water 
source for foaming. You would not think that you would run out 
of water in certain areas. Certainly in small rural areas, you 
very well may not have an effective water source. You cannot go 
take it out of the lake because it has to be filtered water or 
otherwise it shuts down your machines. You have to have carbon 
sources for composting and things. So, this really is a massive 
effort that requires coordination among a lot.
    Senator Baldwin. Thank you, Dr. Clifford.
    Dr. Schuchat, the University of Wisconsin hosts a large 
team of researchers studying pathogens that endanger human, 
animal, and plant health. We have pioneers in developing 
research efforts that could potentially help us understand or 
treat avian influenza viruses.
    However, some of these efforts have been put on hold by a 
Federal pause on gain of function research. This continued 
research pause is delaying the potential benefits of studying 
these viruses, including research that could protect human, 
animal and economic health. When does the CDC plan to issue 
final guidance on this research to be able to end the pause?
    Dr. Schuchat. Yes. I will need to get back with you with 
the specifics on that, but what I would like to say is that the 
public safety is really important, and public support for 
research is very important, and we take very seriously the need 
to make sure that the scientific experiments that CDC or 
research partners are doing are done in the safest possible 
way.
    Influenza virus research is critical to make sure that we 
have safe treatments and effective vaccines and really get 
ahead of these viruses before we get the kind of problem that 
we are seeing right now with the avian outbreaks here. And, so, 
I know that across government, with the National Institutes of 
Health (NIH), CDC, FDA, the question of the moratorium is 
important and we can get back with you with the specifics of 
timing.
    Senator Baldwin. I would appreciate that.
    Dr. Clifford, I understand that State veterinarians are 
considering restrictions on the movement of birds and poultry 
separate from guidance by the USDA. I know that I have heard 
from farmers in my State who have contracts to deliver birds 
across State lines. We all clearly share the common goal of 
containing and eradicating this viral outbreak, but our 
producers facing substantial economic strain. These 
uncertainties make things even more difficult to conduct 
business when it is safe to do so.
    Dr. Clifford, what steps is the USDA taking to ensure that 
quarantine and shipping practices are safe and effective while 
also facilitating these contracts and ongoing commerce?
    Dr. Clifford. Thank you, Senator. So, within our approach, 
we have what we call an infected zone and then a control zone. 
The control zone is around an infected flock. It goes out 10 
kilometers.
    Basically, products that are negative in that area are 
tested regularly, and so nothing can move out of those zones 
unless we permit that product to move. And, there are regular 
testing requirements for those products within that to be able 
to be safely moved in and out of those zones. So, that occurs 
ongoing. We issue, actually, thousands of permits out of those 
zones to allow that safe movement.
    We share that. We have weekly calls with the industry and 
the States across the entire United States and we explain these 
things to them. They know how it is happening. Some States have 
taken additional action because of concern, for example, 
because of the live bird marketing systems that we have in the 
United States, and some of those have caused some issues. We 
intervene on behalf of States such as Wisconsin, Iowa, 
Minnesota, in that area, to try to help facilitate the movement 
of those birds into those States and we do the best we can. 
But, as you know, the States do have oftentimes rights to go 
above and beyond our requirements, and so we try to work 
through that with the industry.
    Chairman Johnson. Senator Carper.
    Senator Carper. Thanks so much. This is a great hearing and 
we really appreciate your being here and your participation.
    I want to come back and revisit the issue of, I will call 
it crop insurance. We have had a crop insurance program in this 
country for a long time and it is a shared partnership between 
the Federal Government, which helps subsidize the crop 
insurance. We changed it in the farm bill, the last farm bill 
we passed here. We changed it up some so that it would cover, 
as I am sure Mr. Clifford remembers, it would cover, I think, 
fruits and vegetables, if farmers want to participate in that.
    And Senator Coons, my colleague from Delaware, I think, 
offered an amendment adopted and included in the bill that 
called for maybe trying a demonstration program with respect to 
insurance for poultry growers and other livestock growers. That 
was in the bill. I think we adopted it maybe a year or so ago 
and I do not know if we have had enough time to actually get it 
up and running. Is that something you are at all familiar with?
    Dr. Clifford. Senator, I am aware of the discussions, but I 
am not involved in the specifics of those. That is kind of 
outside of my range of areas of responsibility.
    Senator Carper. OK. Well, I will just ask you for the 
record. We will just ask you to respond for the record. Maybe 
some of your colleagues there can give us an update to let us 
know how it is going.
    Dr. Clifford. OK.
    Senator Carper. And, as Dr. Gelb was saying, in our 
experience with contract growers and broilers on the Delmarva 
Peninsula is if there is an avian influenza outbreak, the 
chickens are owned by the integrators and the Perdues, 
Mountaires, and companies like that, and the contractors, they 
do not get indemnified, as far as I know. But, they have, as 
Mr. Schneider has said, some real costs to bear.
    And, I want to go back to something you said, Mr. 
Schneider, and I will bounce it over to Mr. Clifford. You were 
very gracious in your comments about the support you have 
gotten from, we will say, the Federal Government, the 
Department of Agriculture and others, and we were very 
encouraged to hear that. You indicated there is a lot of 
bureaucracy, a lot of red tape, and it can be very frustrating, 
time consuming.
    I thought I heard you say, Mr. Clifford, that there is an 
effort to try to identify one person, like a go-to person, for 
Mr. Schneider or anybody else who might be affected, whether it 
is in Minnesota or Iowa or Wisconsin or Delaware. Is that 
something we are actually doing now, where we have, like, one 
designated person, so you do not, like, call a call center and 
get switched from person to person to person? Do we have that 
in effect now, because that sounds like a great idea.
    Dr. Clifford. It is actually in effect, but not in the way 
that we want it to be finalized for the fall and spring. Right 
now, it is one person, but because of our rotations of 
personnel in and out of those areas, because most of these 
people come from different parts of the United States and we 
have them on a 3-or 4-week rotation so they can go back home 
for a period of time before they are redeployed, so----
    Senator Carper. OK. It would be great if we could figure 
out----
    Dr. Clifford [continuing]. Right now, it is, like, a 3-or 
4-week turnaround, so----
    Senator Carper. I understand.
    Dr. Clifford. So for the fall----
    Senator Carper. Yes.
    Dr. Clifford [continuing]. What we are doing for the fall 
and spring migrations is we will assign a single person that 
will stay with that producer for the entire period.
    Senator Carper. Great. One of my favorite sayings, if it is 
not perfect, make it better----
    Dr. Clifford. Yes, sir.
    Senator Carper [continuing]. And I think you have taken a 
good idea and made it better.
    I would like to ask a question about lessons learned. This 
would be for Dr. Gelb. Is it Dr. Clifford or Mr. Clifford?
    Dr. Clifford. It is Dr. Clifford----
    Senator Carper. Dr. Clifford, OK.
    Dr. Clifford [continuing]. But it is OK either way.
    Senator Carper. We have a lot of doctors up here. But, I 
want to ask, can each of you take a minute, Dr. Gelb, Dr. 
Clifford, and Mr. Schneider--I will call you Dr. Schneider, 
too----
    Mr. Schneider. I have been called worse.
    Senator Carper. I am sure. [Laughter.]
    So have we. [Laughter.]
    But, would the three of you just take a minute and share 
with us maybe one key lesson that we have learned, that you 
have learned so far from this outbreak, that can better prepare 
us for further infections, should they occur later this year? 
And, Jack, would you go first.
    Dr. Gelb. Senator, thank you. I have not had any direct 
experiences in this current outbreak, so we have had some 
people, experts from the University of Delaware travel and 
participate in depopulation efforts, because that happens to be 
one of our real strengths, that we helped develop that 
technology years ago. So, I get stories and reports from other 
individuals.
    So, I really feel that biosecurity is really a key issue. I 
think that has been repeated several times today, an area 
that--biosecurity is not sexy. It is not something that is 
easily accomplished. It is a challenge and you sometimes do not 
see results from it. But, certainly, we know it is not the 
entire answer, as Mr. Schneider indicated. You can do 
biosecurity, almost everything right, really, and sometimes it 
is, maybe it is an act of God if you have the introduction of 
the virus here. But, I still think biosecurity is a really key 
weapon in this process.
    Senator Carper. OK. Thanks. Dr. Clifford.
    Dr. Clifford. Senator, if I may expand on that for more 
than one--I would like to hit a few, if I may.
    Senator Carper. Yes. Just do it quickly, please.
    Dr. Clifford. Yes. First and foremost, the questions that 
Senator Johnson, the Chairman, was asking earlier about the 
timeframe of depopulation due to positive testing at our 
National Veterinary Services lab, the confirmatory testing, we 
have already implemented plans quite a while ago to base the 
depopulation of those birds on presumptive positives by the 
NAHLN laboratory where it was taken. So, we do not require 
confirmation anymore. So, that is one lesson learned----
    Senator Carper. OK.
    Dr. Clifford [continuing]. And one action we have taken.
    In addition, one of the things we will be looking at in the 
future is clinical signs where we already know we have virus in 
the area, not even waiting necessarily on a presumptive 
positive.
    On the area of disposal, we need State, local plans in 
place that we know will work before they occur. Biosecurity, it 
is based upon new biosecurity. Air filtration systems--these 
air handling systems in these facilities have to have some type 
of filtration to reduce the amount of dust and potential for 
virus particles to enter through the ventilation system itself. 
Those are just some, but there are others.
    Senator Carper. Good. Thanks.
    Mr. Schneider, just very briefly. Give us one good take-
away, one lesson learned that you think we ought to share with 
the country.
    Mr. Schneider. Well, in addition to all the biosecurity 
efforts----
    Senator Carper. Yes.
    Mr. Schneider [continuing]. We have just been talking 
about, I would suggest that the increase of funding for 
Agricultural Research Service to identify areas that those 
specific biosecurity protocols need to be implemented to help 
us prevent this from happening again would be a wonderful place 
to start.
    Senator Carper. OK, good. My time has expired. I hope we 
will have a chance to ask a few more. Thanks, Mr. Chairman. 
Thank you all.
    Chairman Johnson. You will.
    Mr. Clifford, real quick, because I want to get into the 
insurance or the emergency funding. Is there a program in place 
to indemnify Mr. Schneider as an operator?
    Dr. Clifford. There is a program in place that pays right 
now for the owner of the birds. So, if Mr. Schneider is a 
contract grower, what we have been doing is working with the 
companies to make sure that payments do go to the contract 
growers or contract raisers. I am not sure----
    Chairman Johnson. OK. That is something you try and do 
working with a law that does not contemplate indemnifying the 
operator.
    Dr. Clifford. Well, actually, sir, what we did in the low 
path AI situation quite a few years ago in Virginia, it is part 
of our regulations on low path. It requires the contract 
growers to be paid. The problem is with this particular high 
path, that particular regulation is written into the AI rules 
for low path, not for high path. And, so, we paid the owner of 
the birds.
    Chairman Johnson. Correct. So, Mr. Schneider, you have a 
problem there and we need to work with the Ranking Member to 
figure out what we need to do to address that, because that is, 
obviously, devastating for the operator when it is just the 
owner being paid, and maybe there is an agreement between the 
owner versus the operator, but that is something that needs to 
be addressed.
    Dr. Clifford, you talked about personnel rotation. How many 
USDA offices do we have around the country?
    Dr. Clifford. Veterinary Services offices or USDA offices?
    Chairman Johnson. I mean, where you have qualified 
personnel to respond to this----
    Dr. Clifford. Well----
    Chairman Johnson [continuing]. Because I am surprised we 
are rotating personnel versus just having----
    Dr. Clifford. We do not have that many trained people to do 
this. You are talking about animal health technicians and 
veterinary medical officers. I have about 1,800 people that 
serve in veterinary services. I am not talking about just any 
USDA person.
    Chairman Johnson. But, again, if you are talking about a 
point person to manage a case, I mean, you really need somebody 
who is skilled in management, not necessarily in the hard 
sciences.
    Dr. Clifford. No, sir. They need to understand the science 
as well. In this case, when they are working with them and 
helping them develop a flock plan and a compliance agreement, 
they not only need to understand the red tape, as you call it, 
but also the science.
    Chairman Johnson. OK. Well, again, I mean, that could be an 
interesting discussion to have in terms of--again, if the whole 
purpose of this is to coordinate an effort with one point 
person that an owner or operator is dealing with, I think you 
could certainly have an interesting discussion as to whether or 
not that person has to be trained in all the----
    Dr. Clifford. It is----
    Chairman Johnson [continuing]. As opposed to just trained 
in managing and coordinating the different expertises. But, let 
me move on.
    Dr. Schuchat, I want to talk a little bit about the virus 
itself and vaccinations. First of all, how robust is the flu 
virus? I mean, how long can it survive if it gets on a dust 
particle and gets blown into other farms? I mean, is this a 
virus that is going to last days, weeks, months? Or is this 
pretty fragile?
    Dr. Schuchat. The virus will not last that long, but the 
conditions are quite important. So, the colder weather and the 
dryer weather permits--is favorable to the virus.
    Chairman Johnson. OK. Talking about----
    Dr. Schuchat. So, right now, we are sort of in a quiet 
period for----
    Chairman Johnson. Talking to Mr. Schneider, he said the 
virus can actually be on a snowflake, as well, and so it will 
last a 
little--but, again, are we talking days, then, that the virus 
will last?
    Dr. Schuchat. Yes. I think the issue with the disinfection 
is to make sure that you have reached everything and that it is 
not coming back.
    Chairman Johnson. In terms of the vaccines, so we are 
concerned about trade, the implications of that. I think, just 
as Professor Gelb was talking about, of the potential mutation 
of the virus with vaccines. Can you speak to that a little bit.
    Dr. Schuchat. That is right. Influenza changes constantly, 
and that is why it is so difficult. It can mutate and it can 
also reassort, so swap parts of its genes with other influenza 
viruses. And, two of the three H5 strains that we are dealing 
with, the avian strains in the United States, are these 
reassortants, where we had high pathogenic H5 avian influenza 
from Eurasia that swapped out parts of its genes with the low 
pathogenic avian influenzas that we had here in the United 
States already.
    And, so, the virus is just constantly changing, which makes 
vaccine development difficult. The vaccines that we have for 
humans as well as for animals are not as highly effective as 
some of the other vaccines and the virus can kind of mutate 
away from or escape from the vaccines.
    There is a lot of balance about the avian vaccines. In the 
human vaccines, of course, we do work to prepare candidate 
vaccine viruses and have stockpiled vaccine against the 
original H5 strains from Asia, but those are really preparing 
for pandemic readiness rather than vaccines that we are using 
every day.
    Chairman Johnson. We are always expecting just a 
technological miracle to save us from all these things, but 
again, what you are talking about with the vaccine, those are 
only going to be a certain percentage effective to begin with. 
Plus, we have a real problem with vaccine production in this 
country, do we not? I mean, we have a hard time producing 
enough vaccine sometimes for human flu. Would we have--I mean, 
if we start trying to vaccinate, 300,000 chickens, or 300 
million chickens, a couple hundred million turkeys, do we even 
have even close to the capacity for that, and can we ramp it up 
quickly enough to respond to the changing virus?
    Dr. Schuchat. Let me answer about the human vaccines and 
let Dr. Clifford respond about avian vaccines. The United 
States has invested an enormous amount in expanding our 
manufacturing base and the investment in influenza vaccine 
production and distribution. We actually have had an 80 percent 
increase in the flu vaccines produced and distributed annually 
in the past decade as well as a much stronger infrastructure 
for pandemic vaccine production for humans. But, the animal 
vaccine production works differently.
    Chairman Johnson. No, let me quickly stay on the human 
vaccine, because I think this is important. We had a pretty 
robust vaccine production capability, correct, but then it was 
reduced dramatically, a lot of those lawsuits, that type of 
thing, and 
people--it just was not an attractive business to be in, so 
people--drug manufacturers exited the vaccine business, 
correct? So, we had to have almost government intervention to 
try and boost that production in case of a pandemic or in 
reaction to some of these outbreaks, correct?
    Dr. Schuchat. That is right. There has been a lot of U.S. 
Government investment in stimulating the vaccine industry, both 
for influenza vaccines, and then actually for routine vaccines, 
we have a very strong public-private partnership right now 
where vaccine companies actually are making pretty good profits 
right now.
    Chairman Johnson. But, again, I want to go back to sort of 
the root cause of why we did not have the amount of capacity we 
really needed for vaccine, is it really was because it was a 
very unattractive business. People were being sued and people 
just exited the business, correct?
    Dr. Schuchat. Well, I think it was less the suits than the 
issue of the profitability, because when you are producing 
drugs, people will take medicines for their whole life, and 
successful vaccines, you need a couple doses of, perhaps, 
forever to prevent diseases from occurring. Flu vaccines you 
have to give every year right now. But, the market was not that 
favorable. But, things have changed a bit and we are in much 
better shape for pandemic readiness right now.
    Chairman Johnson. So, is the manufacturing capacity 
different for animals versus humans? Dr. Clifford, answer that, 
please.
    Dr. Clifford. Yes, it is, and our Centers for Veterinary 
Biologics works with the companies here. So, I am not concerned 
about capacity. It is more economics with the companies, 
knowing that we would use the vaccine.
    Chairman Johnson. It is still the same production 
technique, though, correct, by and large?
    Dr. Clifford. By and large, but there are some new 
techniques being used, as well, that----
    Chairman Johnson. Can speed the production and the 
development?
    Dr. Clifford. Yes.
    Chairman Johnson. So, there is more capacity available for 
animal vaccines because you just do not really risk the 
liability problem? Why would we have so much more capacity for 
animal vaccines versus human?
    Dr. Clifford. I really cannot say that from the standpoint 
of the human side, but we have a lot of companies that are both 
domestic and international. If they do not have the capacity 
here, they have approved products that they can move here. So, 
if it cannot be produced here, it can be produced somewhere 
else. So, the capacity is there to produce the vaccine.
    Chairman Johnson. Just a quick question for you, Mr. 
Currie. You are going to have a GAO audit on this. Dr. 
Clifford, how do you think the USDA is going to fare in that 
audit, and I will ask Mr. Currie the same thing. I realize it 
is a little unfair, but I have had my facility audited. I have 
a general sense of, this is going to be a good one, or I might 
have some problems.
    Dr. Clifford. I think they will find some good things and I 
think they will find some areas that we need to improve on, and 
I think you oftentimes find that kind of situation. And, some 
of those lessons learned, we are definitely taking those and 
working with the industry and States to move those lessons 
learned so we do not repeat those same mistakes in the fall and 
spring.
    Chairman Johnson. Mr. Currie, do you think you are going to 
see some improvement from the last time you looked at this 
thing, that they have already learned from lessons and amended 
some things and----
    Mr. Currie. Well----
    Chairman Johnson [continuing]. What is your general sense?
    Mr. Currie. Yes, sir. I think--well, we know--for instance, 
we issued a report on the potential response to an outbreak 
like this in 2007 and made a number of recommendations that 
touched on, almost to a tee, all of these challenges that we 
are facing. I do not know if any of us expected it to be this 
big and this bad. USDA addressed all of those recommendations, 
and so they are being tested now.
    In any emergency, whether it is a natural disaster or an 
outbreak like this, there are going to be challenges and 
lessons learned and things we did not expect and after action 
reporting that we are going to have to study, too, so----
    Chairman Johnson. So, again, there has been a good reaction 
to your prior report, so, hopefully--but, again, there will 
always be lessons learned. It is never perfect. Always room for 
improvement. Senator Carper.
    Senator Carper. Thanks so much.
    We have talked about this a couple of times already in the 
hearing. I want to come back and nail it one more time, and 
maybe for Dr. Clifford. I am talking about how do we mitigate--
let me just back up.
    When we have a farm that goes down in Delmarva because of 
the avian influenza, a lot of times, countries around the world 
will just say they are not going to take any of our chickens. 
And, we also have concerns when we hear from countries, and 
part of the trade negotiations going on right now with the 
Trans-Pacific Trade Partnership is the use of vaccinations in 
livestock or birds and to what extent does that impair our 
ability to sell to a lot of different countries. Some countries 
just do not want to have animals imported into their countries 
that have been vaccinated. You know how it is.
    How can we mitigate the impact of vaccine-related export 
bans that are imposed on the United States? Dr. Clifford.
    Dr. Clifford. So, I think one of the ways to do that is to 
have the plans available to share with certain countries so 
that they can see those firsthand, how we would use it, and 
they would have the knowledge that we are not just going to 
rely on vaccine. In other words, there would be an end game so 
you are not continuing to use vaccine, because, as already 
stated, the virus mutates. These vaccines do not remain highly 
effective for long periods of time. So, other countries, if you 
use a lot of vaccine, will see that as a weakness to control or 
eradicate the disease. They have to understand that we are 
using it only as a tool, and if we can convince them to do 
that, that would be the first step.
    But, if I may just expand on this----
    Senator Carper. Just briefly.
    Dr. Clifford [continuing]. Just to Senator Tester's 
questions earlier about foot and mouth----
    Senator Carper. He asked a lot of questions, did he not?
    Dr. Clifford. Yes, about foot and mouth disease.
    Senator Carper. I told him he holds the record for asking 
questions in a 7-minute period.
    Dr. Clifford. This is the same thing. We would take no 
action to put our industry at risk. We care about our mission 
and we care about American agriculture and we would not do 
that. But, the fact is, there is a lot of concern out there 
about the use of vaccine in a country that is free of FMD with 
vaccination. It is the same thing with high path AI. So, we 
cannot go around the world and say one thing to one country 
because of our position and do something different to somebody 
else.
    Senator Carper. All right. Thanks.
    Dr. Clifford. Thank you, sir.
    Senator Carper. You have all heard the term, this is not 
our first rodeo, or this is not my first rodeo, and when it 
comes to avian influenza, this is not our first rodeo this 
year. This one we see from time to time, probably a lot more 
than we want to.
    One of the things we try to focus on in this Committee is 
not dealing with symptoms of problems, but how do we deal with 
root causes of the problems. A good example of that is all 
these people trying to get into our country from Latin America 
and how do we deal with not just the symptoms of problems on 
the border, but the root causes of their illegal migration.
    Just talk to us about root causes here. Is there any way to 
address this challenge, this problem with the avian influenza 
by addressing not just the symptoms of the problem, but by 
addressing root causes, or is that just not possible? And, 
Jack, would you lead off, and then we will just ask the 
others----
    Dr. Gelb. Yes. Thank you, Senator.
    Senator Carper. I will ask you to be brief, if you will.
    Dr. Gelb. I think, if you consider the root cause the 
introduction from wild bird populations, this is a new normal 
for us, as Dr. Clifford mentioned earlier on. We have not seen 
this. So, this is a new situation, and what we need to do, if 
possible, is to institute the biosecurity at the farm level, 
for example--and this is not only commercial farms, but 
backyard farmers, which are increasingly important in our 
country and numerous, as well. So, on several fronts, this is 
very important.
    Senator Carper. Yes. One of the things we have done in 
Delmarva, we found that some of our earlier avian influenza 
outbreaks came not from wild birds, but literally from live 
bird auctions in places like New York----
    Dr. Gelb. Yes, that is correct.
    Senator Carper. They cleaned those up. They have been 
cleaned up a lot. That has helped a lot.
    Dr. Gelb. Yes. USDA has done a wonderful job, along with 
the State of New York, State of New Jersey, because that 
metropolitan New York area was once very heavily involved with 
certain H7 types of avian influenza viruses.
    Senator Carper. OK. Mr. Currie, this is probably not a fair 
question for you. If you want to jump in, please do.
    Mr. Currie. No, sir. I mean, as I said, we have not 
evaluated the current response, but we are very aware of the 
new challenges and I think there are going to be new challenges 
identified. Monitoring of wild birds is a challenge, and I know 
that USDA, I think just last week, issued a couple new 
strategies to help determine how this should actually be done 
in wild birds and waterfowl----
    Senator Carper. OK.
    Mr. Currie [continuing]. So that is just a new element that 
is going to have to be addressed.
    Senator Carper. Thank you.
    Dr. Schuchat, has your name ever been mispronounced, Dr. 
Schuchat?
    Dr. Schuchat. Once or twice.
    Senator Carper. What is the wildest mispronunciation of 
your name that you recall? [Laughter.]
    Dr. Schuchat. I am not really sure.
    Senator Carper. You do not want to go there, huh? 
[Laughter.]
    Dr. Schuchat. I did not prepare for that question. I am 
sorry. [Laughter.]
    Senator Carper. We will hold that to the next hearing.
    Dr. Schuchat. Thank you. Yes. I think to step back and 
generalize a little bit, we think of this as an emerging 
infection where global threats are local threats and where the 
human-animal interface is very important. So, with influenza, 
we are always worried because the virus is constantly changing 
and we very much are worried about what is happening in the 
rest of the world. With avian influenza, we obviously are very 
keen to know what is going on in the animal surveillance as 
well human surveillance.
    Senator Carper. All right. Thank you.
    Dr. Clifford, just very briefly.
    Dr. Clifford. Yes. Senator, I think it is important to make 
one critical point here.
    Senator Carper. OK.
    Dr. Clifford. This virus came from a virus that was found 
in 1997 in China and it was in an H5N1 outbreak in Europe and 
Asia when there was the concern about the human pandemic. We 
put money around the world into that area. We did not put 
enough and we did not do the job. If we would have eradicated 
H5N1 from Asia, this would not have happened today.
    Senator Carper. Oh, really? That is a great point.
    All right, Scott. I am going to call you Doctor one more 
time. Dr. Schneider.
    Mr. Schneider. That is OK. I kind of like it. [Laughter.]
    If I can learn one thing, I think that I am going to be 
rethinking my entire biosecurity plan on my farm. I am going to 
be reallocating funds toward increasing the structural, 
operational, and cultural protocols that I have in place for my 
farm. Ultimately, it is my problem and it is my farm and I need 
to do something about it. I am going to be training my 
employees a little bit better. I am going to be controlling 
traffic on and off my farm. And, I am even going to take steps 
to try to control dust. And, I would love to include the use of 
a vaccine in my toolbox when I come to biosecurity efforts on 
my farm.
    Senator Carper. That was a great response.
    I will just close with this thought. I am an old Navy guy. 
I think in terms of nautical terms. In the Navy, we had to face 
a big challenge, it is like all hands on deck, and this is all 
hands on deck, and I am pleased to see that the hands, some of 
the hands and the minds that are here, represented here today, 
are focused big time on this and, I think, working 
collaboratively together, and I commend you for that.
    I appreciate very much what you said, Scott, about taking 
responsibility yourself, and that is clearly what needs to be 
done.
    What I like to say, at Home Depot--I do not know if you 
have Home Depot in Minnesota, if you have the ad campaign that 
says, ``You can do it. We can help.'' And, this sort of 
applies. You can do it, but we can help. We all have a role and 
a responsibility to play.
    It is going to come again. It is going to come again, in 
maybe a different mutation. It may come again this fall, and we 
just have to learn from our mistakes, and stuff that works, 
figure out what works, do more of that, that which does not 
work, do less of that.
    Great hearing. Thank you all very much.
    Chairman Johnson. Thank you, Senator Carper.
    And, one thing we like to do is offer the witnesses one 
last comment.
    But, I have to first go to Dr. Clifford. How would we have 
wiped out that virus in Eurasia?
    Dr. Clifford. We talk about one world, one health, and 
global health security. We have to be able to address these 
issues and make sure that they are done. We addressed the human 
pandemic concern, but we basically reduced the funding and 
support necessary to continue to fight it there.
    Chairman Johnson. But, how would we have done it? I mean, 
you can always throw money at something----
    Dr. Clifford. How?
    Chairman Johnson [continuing]. But how would we have done 
it, when you have migratory birds, and how would we have done 
it?
    Dr. Clifford. You have to eradicate it from the poultry. It 
was in the poultry. It was killing the wild birds, but what 
happened, because of its allowance to continue in the continual 
lineage, when it became an H5N8, it adapted itself to wild 
waterfowl and would not kill some of these ducks. That is the 
problem. So, we had to get rid of it in the poultry so you 
would stop this exchange of virus back and forth.
    Chairman Johnson. So, are the protocols in other countries 
not as rigorous as ours, so they do not destroy flocks, that 
type of thing?
    Dr. Clifford. It depends upon the country, and in Asia, in 
parts of Asia, people will actually sleep with their birds and 
may have pigs outside and it is a whole different world.
    Chairman Johnson. Yes.
    Dr. Clifford. But, if we do not help in those cases, many 
of those kinds of diseases that are of zoonotic potential may 
come back to this country.
    Chairman Johnson. That is my point. You are saying we did 
not spend enough money to eradicate it. I am not sure we could. 
That was my only question.
    Dr. Clifford. Well----
    Chairman Johnson. But, anyway, I will give you, again, 
closing comments.
    Dr. Clifford. We could have tried.
    Chairman Johnson. I understand. But, we will start with 
you, Dr. Clifford.
    Dr. Clifford. Again, just thank you, and I think that we 
have learned lessons and we want this process to be faster. It 
is critical that we get in there, kill birds quickly, and get 
the producers back on their feet faster, and that is something 
we have taken to heart.
    Chairman Johnson. Thank you.
    Dr. Schuchat, and I think one of the reasons that Senator 
Carper talked about the pronunciation, I actually had a 
phonetic pronunciation, but we do not have a real good track 
record ourselves here in terms of---- [Laughter.]
    So, if there is a really bad pronunciation, it probably 
came from this Committee. But, anyway, Dr. Schuchat.
    Dr. Schuchat. Influenza has been around for a really long 
time and continues to be a major challenge. I think that the 
big picture here is continued investment in improved vaccines, 
including the so-called universal influenza vaccine, is really 
important to get ahead of these kinds of problems for the 
future.
    Chairman Johnson. Mr. Currie.
    Mr. Currie. Yes, sir. I talked about in my opening 
statement how important coordination and plans are, and it is 
very easy to sit here and talk about those types of things, but 
it is very difficult to address a real life situation like 
this. However, this is somewhat unique in that we have had an 
outbreak. It seems to be slowing, but we expect and we are 
worried about the next outbreak. So, we can actually learn many 
lessons learned, coordination lessons learned, now and figure 
out what our capabilities need to be in other parts of the 
country that may be impacted by this. So, we can potentially 
learn from this quickly and be ready for what we think might be 
coming in the fall.
    Chairman Johnson. Professor Gelb.
    Dr. Gelb. Thank you, Senator. I think we need to help and 
protect the Mr. Schneiders of our country. We have seen the 
number of people involved directly in agriculture fall for many 
years. We have these large, highly efficient means of producing 
food and poultry, but I think, really, the producers and the 
farmers, the family farmers--this is a wake-up call for us, I 
think, because we have enjoyed the best quality food, safest 
food supply in the world. Now, we are importing some shell eggs 
here from other countries. What is wrong with that picture? 
And, we sometimes get into a problem when we have to import 
food, not to mention some other kinds of materials--drugs, et 
cetera. Thank you.
    Chairman Johnson. Well, first of all, let me say you took 
the words right out of my mouth. My own background, my parents 
were both raised on small dairy farms. That tradition of the 
family farm is dwindling and we cannot allow that to happen, 
but we also cannot allow people like Mr. Schneider to remain 
exposed.
    I think in this hearing, I have learned that he is exposed. 
I thought we had coverage. I thought he was just having a hard 
time obtaining that coverage. I am afraid he is completely 
exposed, so I think both Senator Carper and I will certainly 
work together to see what we can do to help those in Mr. 
Schneider's position, and not just Mr. Schneider, but everybody 
affected by this now and in the future. So, that is, I think, 
the real commitment of this Committee.
    It is not necessarily in our jurisdiction, but this is 
certainly our ability to hold an oversight hearing, to expose 
that particular problem. As I said before the panelists sat 
down, this is about getting people to admit we have a problem. 
I think this is a real problem that needs to be addressed 
urgently. Mr. Schneider.
    Mr. Schneider. One of the things that I think that might be 
able to help people like me is just in the indemnity payment 
formula, and one of those things is specific to egg-laying 
farmers, but the indemnification could be based on the future 
value of the eggs that are supposed to be produced from those 
hens.
    That is where the egg industry is just a little bit 
different than the broilers and the turkeys, whereas over a 
period of weeks, those animals are raised and then sent to 
market. In the egg industry, those animals are in my facility 
for over a year, sometimes even 2 years, and it is the value of 
those eggs that are going to be produced, that is where, if 
there was an indemnity payment based on that future value, that 
would have helped me out an awful lot.
    Chairman Johnson. No, as we discussed in my office, too, 
there has to be something like--in my business, I purchased 
business interruption insurance. If you have a catastrophic 
loss, and let us face it, you destroy your flock, that is a 
catastrophic loss, so we have to do something--there has to be 
some indemnification, some insurance that will keep you in 
business, business interruption insurance. Honestly, I am 
shocked that we do not have that either as a government program 
or in private insurance for that capability. So, again, that 
is, to me, a real take-away of this hearing.
    So, again, I just want to thank all the witnesses for your 
testimony. I will state again, this Committee really does have 
a great deal of sympathy for your loss, Mr. Schneider, and we 
are dedicated to doing what we can to help you out of your 
predicament.
    But, this hearing record will remain open for 15 days, 
until July 23 at 5 p.m., for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:56 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
